              D-2010-087                                       September 27, 2010




      Weaknesses in Oversight of Naval Sea Systems
         Command Ship Maintenance Contract
                   in Southwest Asia




                                             SPECIAL WARNING
This report contains contractor information that may be company confidential or proprietary. Section 1905,
title 18, United States Code, and section 423, title 41, United States Code, provide specific penalties for the
unauthorized disclosure of company confidential or proprietary information. You must safeguard this report
in accordance with DoD Regulation 5400.7_R. Portions or all of the information contained in this document is
exempt from public release under 5 U.S.C. § 552(b)(4).
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CLIN                          Contract Line Item Number
COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
FMSNA                         Fincantieri Marine Systems North America
GAO                           Government Accountability Office
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IFM                           Isotta Fraschini Motori
IG                            Inspector General
MARMC                         Mid-Atlantic Regional Maintenance Center
MCM                           Mine Countermeasures
NAVSEA                        Naval Sea Systems Command
O&M                           Operations and Maintenance
QASP                          Quality Assurance Surveillance Plan
U.S.C.                        United States Code
                                  INSPECTOR GE NERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON. VIRGINIA 22202-4704

                                                                      September 27, 20 I 0

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Weaknesses in Oversight of Naval Sea Systems Command Ship
         Maintenance Contract in Southwest Asia (Report No. D-2010-087)

We are providing this repOlt for review and comment. In October 2006, the Navy
awarded a contract to Fincantieri Marine Systems North America for ship maintenance
services to be performed in Bahrain, Japan, and Texas. Navy contracting officials did not
properly manage this contract, valued at $40 million, in accordance with Federal and
DOD regulations.

DOD Directive 7650.3 requires that recommendations be resolved promptly. The Naval
Sea Systems Command Executive Director for Contracts did not respond to the draft
repOlt. Therefore, we request that the Naval Sea Systems Command Executive Director
for Contracts provide comments on the final report by October 27,2010.

If possible, send a .pdf file containing yom comments to audacm@dodig.mil. Copies of
your comments must have the actual signatme of the authorizing official for your
organization. We are unable to accept the /Signedl symbol in place of the actual
signature. If you anange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071).




                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management



                                  SPECIAL WARNING
This report contains contractor information that may be company confidential or
pl'oprietal),. Section 1905, title 18, United States Code, and section 423, title 41,
Uuited States Code, provide specific penalties for the unauthorized disclosure of
compauy confidential 01' pl'opl'ietal), information. You must safeguard this report
in accordance with DoD Regulation 5400.7 R.

Portions 01' all of the information contained in this docnment is exempt from public
release under 5 U.S.c. § 552(b)(4).




                             FOR OFFICIAL USE ONLY
Report No. D-2010-087 (Project No. D2009-D000AS-0163.003)                   September 27, 2010

               Results in Brief: Weaknesses in Oversight of
               Naval Sea Systems Command Ship
               Maintenance Contract in Southwest Asia

What We Did                                             Since October 2008, FMSNA has not provided
This is the third in a series of reports on Army and    certified cost or pricing data to negotiate costs on
Navy ship maintenance contracts for Southwest           spare parts transferred from its affiliate. The
Asia. For this report, we reviewed a Naval Sea          contracting officer should have elevated the issue
Systems Command (NAVSEA) contract, valued at            to more senior officials. The Navy could be
$40 million, for ship maintenance in Bahrain,           overcharged if the required cost information is not
Japan, and Texas. We determined that NAVSEA             obtained.
contracting officials did not properly manage or
administer the contract in accordance with Federal      What We Recommend
and DOD regulations.                                    The NAVSEA Executive Director for Contracts:
                                                         issue task orders that clearly describe all
What We Found                                              services to be performed and supplies to be
NAVSEA did not correctly structure the cost-type           delivered, and negotiate fair and reasonable
contract or perform adequate quality assurance.            prices for parts on all future orders;
Specifically the contracting officer:                    perform a review and initiate appropriate
 (FOUO) Structured the contract line items for            administrative action on the contracting officer
   engine repair parts as a prohibited cost-plus-a-        for allowing a prohibited cost-plus-a-
   percentage-of-cost system of contracting                percentage-of-cost system of contracting;
   because he did not establish a set fee amount         verify and deobligate the dollar value of
   under individual task orders, potentially               invalid unliquidated obligations on contract;
   allowing Fincantieri Marine Systems North             develop a quality assurance surveillance plan
   America (FMSNA) to inappropriately earn                 for the contract and assign a contracting
                 in fees for the first 3 years of the      officer’s representative in theatre to perform
   contract.                                               quality assurance in accordance with the
 Did not properly manage the contract because             quality assurance surveillance plan; and
   he “banked” $20.3 million when he issued task         assist the contracting officer in obtaining
   orders to obligate funds before specific                certified cost and pricing data for the
   requirements were identified. Eventually, the           negotiation of fair and reasonable prices on the
   contracting officer’s representative used               interdivisional transferred parts.
   $19.2 million for defined requirements. The
   remaining $1.1 million, if expended, could           Management Comments and
   result in potential bona fide needs rule             Our Response
   violations.
                                                        The NAVSEA Executive Director for Contracts
 (FOUO) Did not provide sufficient quality
                                                        did not comment on the draft report issued on
   assurance for six task orders in Bahrain
                                                        July 21, 2010. We request the NAVSEA
   because he was unaware of his responsibilities
                                                        Executive Director for Contracts comment on the
   to provide surveillance. As a result, there is no
                                                        recommendations by October 27, 2010. Please
   assurance the Navy received                   in
                                                        see the recommendations table on the back of this
   contracted for supplies and services.
                                                        page.
                                      FOR OFFICIAL USE ONLY
                                                 i
Report No. D-2010-087 (Project No. D2009-D000AS-0163.003)               September 27, 2010

Recommendations Table

                Management                          Recommendations Requiring Comment
Naval Sea Systems Command Executive Director        A.1, A.2, B.1, B.2, B.3, C.1, C.2, C.3, D.1,
for Contracts                                       D.2


Please provide comments by October 27, 2010.




                                               ii
Table of Contents

Introduction                                                                     1

      Objectives                                                                 1
      Background                                                                 1
      Review of Internal Controls                                                2

Finding A. Prohibited Cost-Plus-a-Percentage-of-Cost Structure
Used for Engine Repair Parts                                                     4

      Prohibition on the Use of Cost-Plus-a-Percentage-of-Cost Contract Types    4
      Allowable Cost-Reimbursement Contract Types                                5
      Government Accountability Office Four-Part Test                            5
      Inappropriate Potential Contractor Fee                                     7
      Conclusion                                                                 8
      Recommendations                                                            8
      Management Comments Required                                               9

Finding B. Inappropriate Financial Management                                   10
      Background                                                                10
      Criteria                                                                  10
      Risk Associated With Banking Funds                                        12
      Contracting Officer’s Improper Actions                                    12
      NAVSEA Technical Instructions                                             13
      Conclusion                                                                14
      Recommendations                                                           14
      Management Comments Required                                              15

Finding C. Insufficient Quality Assurance                                       16

      Quality Assurance Surveillance Plan Criteria                              16
      Quality Assurance Surveillance Plan Not Developed                         17
      Contracting Officer’s Representative – Roles and Responsibilities         18
      Insufficient Contract Surveillance                                        20
      Inappropriate Authorization of Payment                                    21
      Unauthorized Duty                                                         21
      Conclusion                                                                21
      Recommendations                                                           22
      Management Comments Required                                              22




                           FOR OFFICIAL USE ONLY
Finding D. Necessary Certified Data Not Provided by Contractor        23

      Criteria                                                        23
      Spare Parts Dispute                                             24
      Contracting Officer’s Efforts to Resolve Dispute                28
      Potential Impact for Future Contracts With FMSNA                29
      Conclusion                                                      30
      Recommendations                                                 30
      Management Comments Required                                    30

Appendices

A. Scope and Methodology                                              31
       Prior Coverage                                                 32
       Related Coverage                                               32
B. Concerns With Full-Service Trial Under Contract N00024-07-D-4002   34
C. Prior Pricing Issues With Other FMSNA Contracts                    35




                          FOR OFFICIAL USE ONLY
Introduction
Objectives
This is the third in a series of reports on the Army and Navy ship maintenance contracts
for Southwest Asia. The overall objective was to determine whether contracts providing
ship repairs and maintenance to Army operations in Kuwait and Navy operations in
Bahrain and United Arab Emirates were properly managed and administered. This report
includes information on the contract we reviewed in U.S. Naval Sea Systems Command
(NAVSEA). We reviewed the appropriateness of the type and structure of the contract
and the adequacy of quality assurance for NAVSEA indefinite-delivery, indefinite-
quantity (IDIQ) contract N00024-07-D-4002 for ship maintenance in Bahrain, Japan, and
Texas. DOD Inspector General (IG) Reports D-2010-005 and D-2010-064 address the
audit objective for Army operations in Kuwait and Navy operations in Bahrain and
include findings on the Fleet and Industrial Supply Center, Sigonella, Detachment
Bahrain; and U.S. Army, Mission and Installation Contracting Command. Additional
findings for the Fleet and Industrial Supply Center, Sigonella, Detachments Bahrain and
Dubai, will be addressed in the fourth and last report in the series. See Appendix A for a
discussion of our scope and methodology. See Appendices B and C for other matters of
interest.

We performed this audit pursuant to Public Law 110-417, The National Defense
Authorization Act for Fiscal Year 2009, section 852, “Comprehensive Audit of Spare
Parts Purchases and Depot Overhaul and Maintenance of Equipment for Operations in
Iraq and Afghanistan.” Section 852 requires “thorough audits to identify potential waste,
fraud, and abuse in the performance of Department of Defense contracts, subcontracts,
and task and delivery orders for (A) depot overhaul and maintenance of equipment for the
military in Iraq and Afghanistan; and (B) spare parts for military equipment used in Iraq
and Afghanistan.”

According to GlobalSecurity.org, Bahrain and the United States signed an agreement in
October 1991 granting U.S. forces access to Bahraini facilities and ensuring the right to
preposition material for future crises. Also according to information at this site, in 1996
two Avenger-class mine countermeasures (MCM) ships were forward-deployed to the
Gulf enhancing the U.S. naval presence and ability to preserve the security of regional
sea lines of communication to enforce United Nations sanctions in Iraq.

Background
The NAVSEA contracting office and program management office for IDIQ contract
N00024-07-D-4002 are located at the Navy Yard in Washington, D.C. NAVSEA’s
mission is to “develop, deliver, and maintain ships and systems on time [and] on cost for
the United States Navy.” NAVSEA’s goals include “building a . . . future Fleet” and
“sustain[ing] today’s Fleet efficiently and effectively.”



                                             1
Mine Countermeasures Ships
MCM ships are designed to clear mines from vital waterways. Avenger-class ships, a
type of MCM ship, are designed as mine hunter-killers capable of finding, classifying,
and destroying moored and bottom mines. The last three MCM ships were purchased in
1990, bringing the total to 14 fully deployable, oceangoing, Avenger-class ships. These
ships use sonar and video systems, cable cutters, and a mine detonating device that can be
released and detonated by remote control to destroy mines. They are also capable of
conventional sweeping measures.

NAVSEA Contract N00024-07-D-4002
IDIQ contract N00024-07-D-4002 was issued to Fincantieri Marine Systems North
America (FMSNA) on October 27, 2006, as a sole-source letter contract with a total not-
to-exceed amount of $53,553,659. The contracting officer later definitized the contract
through modification PZ0007 on July 11, 2007, and set the ceiling in the amount of
$40,333,530. The contract was issued for the performance of warehouse management,
preventative maintenance support, engineering, and planned product improvement
program services to be performed in Bahrain, Japan, and Texas and is structured using
cost-reimbursable and fixed-price contract line item numbers (CLINs).

IDIQ Contracts
Federal Acquisition Regulation (FAR) Subpart 16.504, “Indefinite-Quantity Contracts,”
prescribes the use of indefinite-quantity contracts and states that

               an indefinite-quantity contract provides for an indefinite quantity,
               within stated limits, of supplies or services during a fixed period. The
               Government places orders for individual requirements. Quantity limits
               may be stated as number of units or as dollar values.
                       .        .        .        .        .        .        .
               Contracting officers may use an indefinite-quantity contract when the
               Government cannot predetermine, above a specified minimum, the
               precise quantities of supplies or services that the Government will
               require during the contract period, and it is inadvisable for the
               Government to commit itself for more than a minimum quantity.

FAR Subpart 16.505, “Ordering,” prescribes the procedures for ordering against an IDIQ
contract and states that the contracting officer cannot synopsize orders under an
indefinite-delivery contract but must “clearly describe all services to be performed or
supplies to be delivered so the full cost or price for the performance of the work can be
established when the order is placed. Orders will be within the scope, issued within the
period of performance, and be within the maximum value of the contract.”

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control


                                                  2
weaknesses for NAVSEA. NAVSEA did not have internal controls for structuring
contract line items for engine repair parts, obligating funding, and contract quality
assurance. Implementing the recommendations in Findings A, B, and C will improve
NAVSEA’s internal controls. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Navy.




                                           3
Finding A. Prohibited Cost-Plus-a-
Percentage-of-Cost Structure Used for
Engine Repair Parts
(FOUO) The NAVSEA contracting officer allowed FMSNA to collect a profit on task
orders issued under IDIQ contract N00024-07-D-4002 using the prohibited cost-plus-a-
percentage-of-cost system of contracting on cost-reimbursable contract line items for
engine repair parts. Specifically, the contracting officer allowed the contractor to collect
a             fee on engine repair parts worth approximately                    resulting in a
fee of about            . In addition, the contractor can potentially earn a fee of about
              for the first 3 years of the contract if this practice continues. This occurred
because the contracting officer incorrectly issued task orders under the contract. The
contracting officer also did not establish a set fee amount under individual task orders for
the engine repair part contract line item, potentially allowing the contractor to maximize
its profit by purchasing the most expensive parts. To ensure that the prohibited cost-plus-
a-percentage-of-cost system of contracting is no longer used, the NAVSEA contracting
officials should:
      correctly issue task orders under IDIQ contract N00024-07-D-4002,
      establish a fixed-fee amount when issuing task orders for repair parts, and
      negotiate fair and reasonable prices for repair parts on all future orders.


Prohibition on the Use of Cost-Plus-a-Percentage-of-
Cost Contract Types
Section 2306, title 10, United States Code (10 U.S.C. 2306) and Federal Acquisition
Regulation (FAR) 16.102 (c), “Policies,” prohibit the use of a cost-plus-a-percentage-of-
cost system of contracting. A Comptroller General decision, “Marketing Consultants
International Limited,” B-183705, 55 Comp. Gen. 554, December 10, 1975, citing the
Supreme Court in “Muschany vs. United States,” 324 U.S. 49, 61-62 (1945), states that
the underlying intent of Congress when prohibiting cost-plus-a-percentage-of-cost
contracts was to protect the Government against exploitation when using such a system
of contracting. According to the Comptroller General decision, the danger in using a
cost-plus-a-percentage-of-cost contract is the incentive to the contractor to pay liberally
for cost-reimbursable items because a higher cost means a higher fee to the contractor.  
Additionally, the Comptroller General decision states that Congress indicated it did not
care how a contractor computed the fee or profit as long as the contractor fixed that fee or
profit at the time when the Government became bound to pay it by the Government’s
acceptance of the contractor’s bid.




                               FOR OFFICIAL USE ONLY
                                         4
Allowable Cost-Reimbursement Contract Types
FAR Subpart 16.301-1, “Description,” states that the types of cost-reimbursement
contracts are cost contracts, cost-sharing contracts, cost-plus-incentive-fee contracts,
cost-plus-award-fee contracts, and cost-plus-fixed-fee contracts. In cost contracts, the
contractor does not receive a fee for work performed. In a cost-sharing contract, the
contractor does not receive a fee and is reimbursed only for an agreed-upon portion of
costs incurred. Cost-plus-incentive-fee contracts provide for a negotiated fee that
is adjusted at a later time based upon the actual allowable costs compared to the target
costs. A cost-plus-award-fee contract provides for a fee that consists of a base amount,
which is fixed at the inception of the contract, and an award amount that is sufficient to
motivate excellent performance. Finally, a cost-plus-fixed-fee contract provides for the
payment of a negotiated fixed fee.


Government Accountability Office Four-Part Test
The NAVSEA IDIQ contract N00024-07-D-4002 met all four of the prohibited cost-plus-
a-percentage-of-cost guidelines outlined in the Comptroller General decision B-183705.
In this decision, the Government Accountability Office (GAO) states that the guidelines
for determining whether a contract arrangement constitutes a prohibited cost-plus-a-
percentage-of-cost contract are whether:
    1. payment for profit is based on a predetermined percentage rate,
    2. the predetermined percentage rate is applied to actual performance costs,
    3. contractor entitlement is uncertain at the time of contracting, and
    4. contractor entitlement increases commensurately with increased performance
        costs.

Predetermined Percentage Rate
(FOUO) The contracting officer established a predetermined percentage rate of
            as the fee for certain cost-reimbursable subCLINs,1 specifically for selected
repair parts. Although the contract states that the fee is “not-to-exceed”                the
contracting officer consistently applied the             rate to all actual costs for those
subCLINs.2 The contract meets the first part of the GAO four-part test for determining
whether the contract contains prohibited cost-plus-a-percentage-of-cost CLINs.

Percentage Rate Applied to Actual Performance Costs
(FOUO) The contracting officer applied the predetermined percentage rate
to the actual performance costs of the contractor. As shown in Table 1, the fee calculated
for each task order equals exactly            of the cost of repair parts, including added
fees for material handling and general and administrative items. The contract meets the
second test in the GAO four-part test for determining whether a contract contains
prohibited cost-plus-a-percentage-of-cost CLINs.


1
    The subCLINs are 000903, 001903, 002703, and 003503.
2
    The fees for cost of spare parts are shown in Table 1.
                                    FOR OFFICIAL USE ONLY
                                              5
                (FOUO) Table 1. Actual Fee Authorized to Contractor
  Task          TO 0002    TO 0006       TO 0007      TO 0008      TO 0010                        Total
  Order

  Cost of        $7,000         $12,021        $693,175        $584,467       $541,810      $1,838,473
   Parts

Material
Handling

  G& A


 Subtotal


Fee


   Total         $10,343        $17,762       $1,024,242       $863,613       $800,583      $2,716,543


TO             Task Order
G&A            General and Administrative

Uncertain Contractor Entitlement
(FOUO) The contractor’s entitlement was uncertain at the time of contract definitization
because there was no negotiated dollar amount associated with the cost-reimbursable
subCLINs. The contract started as a letter contract, which requires definitization to
negotiate and agree on a contract price. However, modification PZ0007, the
definitization modification to the contract, did not include a negotiated fee. Modification
PZ0007 included information on the cost-reimbursable subCLINs but did not include a
dollar amount associated with those subCLINs, for example, a certain entitlement.
Modification PZ0007 to the contract indicated that the amount for subCLINs 000903,
001903, 002703, and 003503 included the cost of selected repair parts plus a fee not to
exceed                Further, the contracting officer did not correctly issue definitized task
orders under IDIQ contract N00024-07-D-4002 (see Finding B). The task orders the
contracting officer issued containing CLINs 0009, 0019, 0027, and 0035 did not establish
a set profit for the subCLINs. Instead the fee was calculated based on the actual cost of
parts the contractor requested reimbursements for after the work was completed (see
Table 1). The contract, therefore, meets the third part of the GAO four-part test for
determining whether a contract is a cost-plus-a-percentage-of-cost type contract.

                               FOR OFFICIAL USE ONLY
                                         6
Contractor Entitlement Increases as Performance Costs
Increase
(FOUO) The contractor’s fee for this contract
increased commensurately with increased costs        The contractor’s fee for this
of repair parts. For example, in task order                contract increased
0002, when the cost for repair parts was
$6,999.54, the fee to the contractor was
                                                         commensurately with
         . When the cost of repair parts was           increased costs of repair
much higher, as in task order 0007                                 parts.
($693,175.27), the fee to the contractor is also
much higher                . The contract meets the fourth part of the GAO four-part test
for determining whether a contract has prohibited cost-plus-a-percentage-of-cost CLINs.
See Table 1 on page 6.


Inappropriate Potential Contractor Fee
(FOUO) We calculated a potential fee of approximately                     based on the
amount obligated to the cost-reimbursable CLINs that included the repair parts
subCLINs. However, we could not determine which subCLINs the contracting officer
obligated money to because the contracting officer obligated the money at the CLIN level
and did not sufficiently define the requirements to the subCLIN level. Therefore, the
              is the potential fee that could be earned based on applying the
profit rate because we could not determine whether the contracting officer obligated
funds toward subCLINs that allow fees. The contracting officer believed that the only
potential fee the contractor could earn is on the interdivisional transferred parts valued at
              from FMSNA’s affiliate IFM (see Finding D). The                     includes the
fee that has already been paid to the contractor as well as the fee that could be paid based
on applying the               fee to the money obligated to the cost-reimbursable CLINs.
Because the contracting officer issued the task orders to bank funds (see Finding B) and
consistently applied the               fee rate to actual costs the maximum fee FMSNA
could earn is approximately                   (see Table 2).




                               FOR OFFICIAL USE ONLY
                                         7
                (FOUO) Table 2. Potential Fee Contractor Could Earn
                    FY 2007          FY 2008          FY 2009                     Total

 Total Funds
 Obligated to
    Cost
Reimbursable
   CLINs
 Subtotal of
  Obligated
Funds Without
     Fee
  Fee




Conclusion
(FOUO) The danger in using a cost-plus-a-percentage-of-cost contract is the incentive to
the contractor to pay liberally for cost-reimbursable items because a higher cost means a
higher fee to the contractor. We determined that the contractor’s fee increased as costs
increased, illustrating the incentive to the contractor to purchase higher cost repair parts.
The contracting officer obligated a total of                to cost-reimbursement CLINs
0009, 0019, and 0027 through task orders and task order modifications. The potential fee
for the total amount obligated to the cost-reimbursement CLINs is                  (see
Table 2). Revising the contract should reduce costs. The NAVSEA Executive Director
for Contracts should review the contracting officer’s actions for allowing a prohibited
cost-plus-a-percentage-of-cost system of contracting.


Recommendations
A. We recommend that the Naval Sea Systems Command Executive Director for
Contracts:

       1. Direct the contracting officer to:

               a. Issue task orders under indefinite-delivery, indefinite-quantity contract
N00024-07-D-4002 that clearly describe all services to be performed and supplies to be
delivered and establish the full price for the performance of the work (see Finding B);




                               FOR OFFICIAL USE ONLY
                                         8
               b. Establish a fixed-fee amount when issuing task orders for repair parts;
and

               c. Negotiate fair and reasonable prices for repair parts on all future
orders.

        2. Perform a review, and as appropriate initiate, administrative action against the
contracting officer in accordance with Federal Acquisition Regulation Subpart 1.602-
1(b), “Authority,” for:

               a. allowing a prohibited cost-plus-a-percentage-of-cost system of
contracting,

               b. improperly “banking” funds on the contract [Finding B], and

               c. not developing a quality assurance surveillance plan or appointing a
contracting officer’s representative in country [Finding C].


Management Comments Required
The Naval Sea Systems Command Executive Director for Contracts did not comment on
a draft of this report. We request that the Naval Sea Systems Command Executive
Director for Contracts provide comments on the final report.




                                             9
Finding B. Inappropriate Financial
Management
The NAVSEA contracting officer did not properly manage IDIQ contract N00024-07-D-
4002. This occurred because the contracting officer “banked” approximately
$20.3 million in Navy O&M funds when he issued task orders for the purpose of
obligating funds before specific requirements were identified. Eventually, the COR
issued technical instructions that defined the requirements for approximately
$19.2 million of the banked funds. The remaining $1.1 million in Navy O&M funds
from FY 2007, FY 2008, and FY 2009 are invalid unliquidated obligations and, if
expended, could result in potential bona fide needs rule violations.

In addition, the contracting officer’s failure to negotiate prices or definitize requirements
in a timely manner for those task orders associated with cost reimbursable work led to
using the prohibited cost-plus-a-percentage-of-cost system of contracting (see
Finding A).

Background
An obligation is the amount of an order placed, contract awarded, or service received
during an accounting period that requires payment during the same, or a future period. It
is recorded when an authorized agent of the Federal Government enters into a legally
binding agreement to purchase specific goods or services. The recorded obligation
reduces by the amount of payments made on bills received. The obligated balance still
owed is the unliquidated balance. When all services or goods have been received and
paid for, the obligation is considered “liquidated,” and any remaining balance should be
deobligated to make the funds available for other uses. However, funds can only be
obligated in the fiscal years for which they are available or used for adjustments to or
payments of existing obligations. Operation and Maintenance appropriations are
available for obligation for one fiscal year, available for expenditure for the next five
fiscal years, and canceled at the end of the fifth year after expiration of the appropriation.
Canceled funds are not available for expenditure for any reason.

Criteria
The FAR provides the requirements for issuing task orders under an IDIQ contract. In
addition, the DOD Financial Management Regulation (FMR) establishes how bona fide
needs rule violations and Antideficiency act violations could occur.

Federal Acquisition Regulation
FAR Subpart 16.504, “Indefinite-Quantity Contracts,” states that
               an indefinite-quantity contract provides for an indefinite quantity,
               within stated limits, of supplies or services during a fixed period.
               The Government places orders for individual requirements. Quantity
               limits may be stated as number of units or as dollar values.
                        .         .        .         .        .         .        .


                                               10
               A solicitation and contract for an indefinite quantity must—
               i. Specify the period of the contract, including the number of options
                    and the period for which the Government may extend the contract
                    under each option;
               ii. Specify the total minimum and maximum quantity of supplies or
                    services the Government will acquire under the contract;
               iii. Include a statement of work, specifications, or other description,
                    that reasonably describes the general scope, nature, complexity, and
                    purpose of the supplies or services the Government will acquire
                    under the contract in a manner that will enable a prospective offeror
                    to decide whether to submit an offer; [and]
               iv. State the procedures that the Government will use in issuing orders
                     ...

FAR Subpart 16.505, “Ordering,” states that
               the contracting officer does not synopsize orders under an indefinite-
               delivery contract . . . [but must] clearly describe all services to be
               performed or supplies to be delivered so the full cost or price for the
               performance of the work can be established when the order is
               placed. Orders shall be within the scope, issued within the period of
               performance, and be within the maximum value of the contract.
                         .         .        .         .        .        .     .
               Orders placed under indefinite-delivery contracts must contain the
               following information:
               i. Date of order.
               ii. Contract number and order number.
               iii. For supplies and services, contract item number and description,
                     quantity, and unit price or estimated cost or fee.
               iv. Delivery or performance schedule.
               v. Place of delivery or performance . . . ;
               vi. Any packaging, packing, and shipping instructions.
               vii. Accounting and appropriation data.
               viii. Method of payment and payment office, if not specified in the
                     contract.

DOD Financial Management Regulation
DOD FMR, volume 3, chapter 8, “Standards for Recording and Reviewing Commitments
and Obligations,” states that each dormant unliquidated obligation of $50,000 or more
shall be reviewed to determine if: the recorded obligation amount is accurate, the
unliquidated amount is valid, and for goods and services received or provided, accrued
expenditures or accrued earnings are reconciled with related accounts payable and
accounts receivable accounts.

DOD FMR, volume 14, chapter 1, “Administrative Control of Appropriations,” states
that DOD officials cannot authorize an obligation or make an expenditure beyond the
permitted amount. Specifically, DOD officials must “ensure that the obligation and
expenditure of funds provide for a bona fide need of the period of availability of the fund
or account.”




                                                  11
DOD FMR volume 14, chapter 2, “Violations of the Antideficiency Act,” states that a
violation of the Antideficiency Act can occur if “obligations or expenditures of funds do
not provide for a bona fide need of the period of availability of the fund or account and
corrective funding is not available.”


Risk Associated With Banking Funds
The contracting officer intentionally banked $20.3 million on task orders instead of
                                       clearly describing all services to be performed,
     The contracting officer           supplies to be delivered, or establishing the full
         disregarded the               price for the performance of the work in
                                       accordance with FAR Subpart 16.505. The
      fundamental guiding
                                       contracting officer disregarded the fundamental
       principles of funds             guiding principles of funds management by
    management by banking              banking funds for future use and before
    funds for future use and           requirements were determined. The contracting
   before requirements were            officer’s process violates FAR and DOD FMR
           determined.                 guidance for placing orders and obligating funds
                                       for individual requirements. Consequently, the
contracting officer obligated funds via task order that did not identify requirements; the
task orders may not, therefore, meet a bona fide need and may result in an Antideficiency
Act violation.

Contracting Officer’s Improper Actions
The contracting officer issued task orders for engineering services under the contract to
bank approximately $20.3 million in O&M funds. The task orders functioned as a way to
bank funds rather than to place actual orders. Each task order that was issued acted as a
separate account that was then drawn down through the issuance of technical instructions
when an actual need arose. In addition, the COR maintained a “checkbook” that kept
track of the balance of each task order minus the technical instructions to ensure the task
order was not overdrawn, much like a checkbook for a bank account would be used.

The contracting officer did not clearly describe all services to be performed, supplies to
be delivered, or establish the full price for the performance of the work when he issued
task orders on the IDIQ contract. According to the requirement in the IDIQ contract, the
contractor would provide all services as needed when directed by task order for the M-
Class diesel engines; the task order would include an attachment specifying the need for
engineering services for work to be performed in Bahrain. However, the nine task orders
for engineering services,3 valued at approximately $20.3 million, did not include a
statement of work or statement specifying the need for engineering services. For
example, task order 0002 contained the following three CLINs and not-to-exceed


3
  These engineering services were for work performed in Bahrain, Japan, and one task order for Texas. We
included the Japan and Texas engineering services in our review because the problems with the task orders
were the same as the ones for Bahrain.

                                                   12
amounts: CLIN 0007AB, for Engineering Services in Bahrain, $54,000; CLIN 0008AB,
for Engineering Services in Japan, $30,000; and, CLIN 0009AA, Support for CLINs
0005−0008, $50,000. However, task order 0002 did not specify any work for the diesel
engines that needed the contractor’s immediate attention and did not identify the specific
ship the work would be performed on. As a result, the task orders did not document the
specific work to be performed or establish the exact cost of work required.

We asked the NAVSEA contracting personnel why the task orders did not have specific
work requirements and established prices and quantities for those requirements.
According to NAVSEA contracting personnel, when NAVSEA received Navy O&M
funds, the contracting officer obligated those funds immediately on task orders under the
contract. They stated that the purpose of issuing a task order under the contract was to
obligate money to a particular CLIN and that rather than establishing the statement of
work and definitized cost for each task order, the COR issued technical instructions under
the task orders to direct the contractor to begin work when a specific need arose on a
ship. They stated that the technical instructions better defined the work requirements and
functioned as the actual statement of work.

NAVSEA Technical Instructions
We reviewed the technical instructions and determined that the technical instructions
definitized the work because they described the specific work required and established
the prices and quantities for the requirements. For example, technical instruction 4002-
07-32B, dated September 21, 2007, issued under task order 0002, authorized the
contractor to implement a full service trial to perform preventative maintenance, repair
planning, repairs, data analysis, and ships’ force mentoring and training aboard the USS
Dextrous (MCM-13). Technical instruction 4002-07-32B established the price for work,
$955,192, based on the contractor’s estimate and included a statement of work with
general and specific requirements for the full service trial.

Based on NAVSEA’s use of task orders and technical instructions, the technical
instructions functioned as the actual task orders while the task orders themselves
functioned as IDIQ contracts that allowed the Navy to bank money for future
requirements. The future requirements were established later through technical
instructions issued by the COR rather than the contracting officer. We determined that
the contractor had been paid $12.6 million of the $20.3 million in O&M funds. We
determined that $6.6 million of the $7.7 million unliquidated obligations balance had an
identifiable requirement and were, therefore, valid unliquidated obligations. The
remaining $1.1 million in unliquidated obligations is invalid because requirements for the
$1.1 million had not been identified.
This occurred because the                       The remaining $1.1 million in
contracting officer did not issue task        unliquidated obligations is invalid
orders in accordance with FAR                    because requirements for the
Subpart 16.505. The $1.1 million
should be deobligated. See Table 3
                                            $1.1 million had not been identified.
for the $1.1 million by fiscal year.


                                            13
                  Table 3. NAVSEA Obligations and Expenditures
                    FY 2007        FY 2008         FY 2009                      Total

   Amount            $1,759,192        $15,454,734        $3,111,360        $20,325,286
 obligated on
 task orders



Amount paid           $893,497         $9,633,870         $2,121,978        $12,649,345
  for task
   orders



    Valid             $558,354         $5,399,366          $647,087          $6,604,807
unliquidated
 obligations
supported by
     TIs

    Invalid           $307,341          $421,498           $342,295          $1,071,134
 unliquidated
  obligations
 unsupported
     by TI




Conclusion
The contracting officer intentionally banked $20.3 million on task orders that did not
identify specific requirements as required by FAR 16.505. By banking funds on
undefinitized task orders, the contracting officer increased the risk that bona fide needs
rule violations could occur and prevented $1.1 million of the $20.3 million from being
put to better use. The contracting officer should have deobligated the unused funds once
the technical instructions were issued.

Recommendations
B. We recommend that the Naval Sea Systems Command Executive Director for
Contracts:

       1.   Direct the contracting officer for contract N00024-07-D-4002 to:



                                            14
              a. Stop issuing task orders that “bank” money; issue task orders in
accordance with Federal Acquisition Regulation Subpart 16.505, “Ordering.”

               b. Verify and deobligate the dollar value of the invalid unliquidated
obligations on contract to reduce the risk of a potential bona fide needs rule violation.

        2. Review all ongoing Naval Sea Systems Command indefinite delivery,
indefinite quantity contracts as part of good financial management practices to ensure that
task orders are being issued in accordance with Federal Acquisition Regulation Subpart
16.505 and not as a tool to bank funds.

       3. Establish procedures for all Naval Sea Systems Command contracts to
discontinue the practice of issuing task orders that “bank” funds in anticipation of future
needs.


Management Comments Required
The Naval Sea Systems Command Executive Director for Contracts did not comment on
a draft of this report. We request that the Naval Sea Systems Command Executive
Director for Contracts provide comments on the final report.




                                             15
Finding C. Insufficient Quality Assurance
(FOUO) The contracting officer did not provide sufficient surveillance and acceptance
for six task orders, valued at approximately               ,4 for engineering services
performed in Bahrain. Specifically, the contracting officer failed to develop a quality
assurance surveillance plan (QASP) for the overall IDIQ contract or the task orders
issued under it, designate an on-site contracting officer’s representative (COR) to oversee
contractor work, and establish lines of communication and expectations for surveillance
and acceptance for Navy representatives on site. This occurred because the contracting
officer was unaware of his responsibilities to provide surveillance for the task orders. In
addition, the contracting officer relied on the COR, located in the United States, to make
decisions for the overall IDIQ contract and task orders that should have been made by the
contracting officer. As a result, there is no assurance that the Navy received the
              in contracted for supplies and services.

Quality Assurance Surveillance Plan Criteria
FAR Subpart 37.604, “Quality Assurance Surveillance Plans,” states the Government
may either prepare the QASP or require the offerors to submit a proposed QASP for the
Government’s consideration.

FAR Subpart 46.103, “Contracting Office Responsibilities,” states that the contracting
office is responsible for ensuring the QASP is created based on specifications for
inspection, testing, and other contract quality requirements essential to ensure the
integrity of the supplies or services provided by the activity responsible for technical
requirements.

FAR Part 46.401, “General,” states that a QASP “should be prepared in conjunction with
the preparation of the statement of work” and “should specify all work requiring
surveillance; and the method of surveillance.” The QASP is a document that allows the
Government to determine that the supplies and services provided by the contractor
conform to contract requirements. The plan identifies all the work requiring surveillance
and how the surveillance will be performed. Each contract designates the place where
the Government reserves the right to perform quality assurance. If the Government
inspects the supplies other than at destination, the supplies should be re-examined for
quantity, damage in transit, and possible substitution or fraud at destination. An
inspection report, receiving report, or commercial shipping packing list documents the
Government inspection.




4
  (FOUO) The                 is specific only to engineering services performed in Bahrain under the
contract. The               includes the amount obligated specifically for engineering services in Bahrain as
well as the amount of funds obligated for support for engineering services in Bahrain. See Appendix A for
a detailed description of how we calculated the
                                    FOR OFFICIAL USE ONLY
                                              16
Quality Assurance Surveillance Plan Not Developed
The contracting officer did not develop a QASP for contract N00024-07-D-4002 or any
of the task orders issued under the contract. The contracting officer stated that he was
unaware of the FAR requirement for the contracting officer to develop a QASP and
ultimately relied on a NAVSEA individual, who is now the COR for the contract, to
make the determination that a QASP was not required. However, during a review of the
contracting file, we found evidence that the contracting officer considered developing a
QASP for the contract, but let the COR make the determination to not develop a QASP.
The contracting officer asked the COR via e-mail during the presolicitation phase
whether a QASP needed to be developed for the contract. The COR responded that the
NAVSEA standard items invoked in the basic contract qualified as the QASP.

The NAVSEA standard items did not meet the FAR requirements for a QASP. For
example, NAVSEA standard item No. 009-67 provided the detail for each of the items
the contractor was supposed to develop and/or manage. These requirements were for the
contractor to perform, not for the Government to perform. Nowhere in the NAVSEA
standard item document did it state that the work listed in the document requires
surveillance or outlines how the surveillance will be conducted by Government
personnel. FAR Subpart 46.401 (e), “General,” states that “Government inspection shall
be performed by or under the direction or supervision of Government personnel,” not the
contractor. In addition, attached to NAVSEA standard item No. 009-67 was a test
performance responsibility-witness record for documenting test procedures performed by
the contractor, ship’s force, or Government personnel and the results of the test.
Although this test performance record can be accomplished by Government personnel,
the NAVSEA standard item did not identify specific items for the Government to
perform surveillance on and did not specify how the surveillance should be performed as
required by FAR Part 46.401. Therefore, the NAVSEA standard items did not qualify as
the QASP, and the contracting officer should have developed a QASP. There was no
indication in the contract file that the contracting officer reviewed the NAVSEA standard
items to determine whether the NAVSEA standard items included the elements of a
QASP.

The COR also provided us with the contractor’s quality plan, issued by FMSNA.
According to FAR Subpart 37.604, the Government may either prepare the QASP or
require the offerors to submit a proposed QASP for the Government’s consideration. We
reviewed the quality plan provided by the COR and found no evidence that the
Government approved the plan. FAR Subpart 46.401 states that the QASP should
specify the work requiring surveillance and the method of surveillance. The quality plan
stated that it applies to the performance, verification, and reporting of all services and
repair operations concerning the quality assurance department and the diesel engine
department within FMSNA. The quality plan stated that it applies to all services;
however, it did not specify the specific work requiring surveillance. The quality plan
specified documents used by the contractor for surveillance, such as a subcontractor
evaluation form. FAR Subpart 46.401 states that “Government inspection shall be
performed by or under the direction or supervision of Government personnel,” not the

                                            17
contractor. The quality plan provided by the COR did not qualify as a QASP because it
was not approved by a Government representative, did not contain specific work
requiring surveillance, and was for contractor internal use.

The contracting officer should have made a determination as to whether the NAVSEA
standard items and the contractor’s quality control plan met the FAR requirements for a
QASP because he is ultimately responsible for the contract quality assurance. In order to
ensure that the Navy receives the services it is paying for, the contracting officer should
develop a QASP for the measurable evaluation of the contractor’s performance.

Contracting Officer’s Representative – Roles and
Responsibilities
The FAR, Defense Federal Acquisition Regulation Supplement (DFARS), and NAVSEA
Instruction 4200.17C provide guidance on the roles and responsibilities of the COR.

FAR
We reviewed the FAR to determine authority granted only to contracting officers that
would not be delegable to CORs. We used this criteria to determine whether the COR
was overstepping his authority as the COR.

FAR Subpart 1.602-1, “Authority,” states that “contracting officers have authority to
enter into, administer, or terminate contracts and make related determinations and
findings. Contracting officers may bind the Government only to the extent of the
authority delegated to them. Contracting officers shall receive from the appointing
authority clear instructions in writing regarding the limits of their authority.”

Defense Federal Acquisition Regulation Supplement
DFARS 201.602-2, “Contracting Officers Responsibilities,” states that a COR “must be
qualified by training and experience commensurate with the responsibilities to be
delegated in accordance with . . . agency guidelines.” The COR has “no authority to
make any commitments or changes that affect price, quality, quantity, delivery, or other
terms and conditions of the contract.”

“For contract actions for services awarded by DOD component . . . contracting officers
shall designate a properly trained COR in writing before contract performance begins.”
The COR must be a Government employee and have a designation letter that:
     specifies the extent of the COR’s authority to act on behalf of the contracting
        officer,
     identifies the limitations on the COR’s authority,
     specifies the period covered by the designation,
     states the authority is not redelegable, and
     states the COR may be held personally liable for unauthorized acts.




                                            18
Office of the Secretary of Defense
Deputy Secretary of Defense memorandum, “Monitoring Contract Performance in
Contracts for Services,” August 22, 2008, states that “trained and ready CORs are
critical; they ensure contractors comply with all contract requirements and that overall
performance is commensurate with the level of payments made throughout the life of the
contract.” Requiring activities must ensure that CORs are properly trained, ready, and
are assigned prior to contract award.

NAVSEA Instruction
NAVSEA Instruction 4200.17C, “Contracting Officer’s Representative,” states that a
COR “is a technically qualified, properly trained individual . . . appointed in writing by
the Procuring Contracting Officer (PCO) to serve as liaison between the Government and
a contractor for the technical aspects of a specific contract or order. The COR monitors
the contractor’s performance, serves as the focal point for the resolution of technical
issues, and provides technical and administrative support to the contracting officer.” “To
ensure adequate surveillance of contractor performance under service contracts . . . the
[contracting officer] may designate a COR, in writing . . . [or the contracting officer]
shall assume COR responsibilities on an interim basis until an available, qualified COR
can be appointed.”

The COR is responsible for:

               a) monitoring the contractor’s technical compliance and progress and
                  identifying promptly to the [contracting officer] all observed
                  substantive deficiencies not in compliance with contract/delivery
                  order terms and conditions;
               b) ensuring that all technical instructions issued to the contractor are
                  otherwise within the scope of the contract statement of work and
                  available funds, and are in writing;
               c) acting as coordinator, maintaining records of and ensuring the
                  acceptability of all specified contract deliverables;
               d) maintaining records of and reviewing invoices to ensure the
                  general appropriateness of types and quantities of labor and
                  material to the task being performed;
                       .        .         .        .         .        .       .
               f) maintaining running tallies of expended man-hours and dollars
                  compared to awards for each TI [technical instruction] along with
                  cumulative tallies for each contract for which the COR is assigned
                  COR responsibilities.




                                                 19
Insufficient Contract Surveillance
The contracting officer properly designated by letter on September 24, 2007,5 the current
qualified COR for contract N00024-07-D-4002 in accordance with DFARS 201.602-2,
“Contracting Officers Responsibilities.” However, the COR did not fulfill his duties as a
COR and monitor the contractor’s performance in accordance with Deputy Secretary of
                                       Defense and NAVSEA guidance. The COR was
  The COR . . . did not travel located at the Navy Yard, Washington D.C., and
   to Bahrain to monitor the           did not travel to Bahrain to monitor the contractor’s
                                       performance because the contracting officer did not
   contractor’s performance            think the COR needed to be on site. The COR told
    because the contracting            us he relied on the project manager (surveyor) or
    officer did not think the          port engineer for contract surveillance; however, he
   COR needed to be on site.           did not receive any surveillance documentation
                                       verifying that the work was complete, accurate, and
acceptable. He stated he knew the work was completed when the ship was operational.
We verified that material inspection and receiving reports, DD Form 250,6 were
submitted in the Wide Area Work Flow database along with the contractor’s invoices;
however, the contracting officer stated he never saw any DD 250s for the contract and
was unsure whether the contractor submitted DD 250s in the Wide Area Work Flow
database along with the invoices.

Although the COR stated that he relied on the project manager for contract surveillance,
the project manager did not perform sufficient contract surveillance. The Mid-Atlantic
Regional Maintenance Center (MARMC)7 supervisor surveyor (project manager) stated
that he was not delegated responsibility for contractor surveillance for contract N00024-
07-D-4002; however, he stated that he signed the DD 250s to help the COR. The project
manager stated that there was no way for the MARMC surveyors to verify labor hours
and that he did not have the manpower to verify every part used by the contractor for the
work performed. This method did not result in sufficient quality assurance. The COR
should not have relied on the project manager to ensure the contractor was meeting
contract quantity and quality standards.




5
  Contract N00024-07-D-4002 had multiple CORs assigned over the life of the contract. The first COR
was designated by letter on January 13, 2005, prior to contract award in October 2006.
6
  DD 250s, material inspection and receiving reports, are submitted by the contractor specifying the service
performed and the amount being billed for. The official responsible for contract quality assurance signs the
form certifying that the services were completed.
7
  On October 1, 2009, as a result of the Base Realignment and Closure, MARMC was subsumed by the
Norfolk Naval Shipyard, and the Commander, Regional Maintenance Center, was realigned under
NAVSEA. As a result, MARMC changed its name to Norfolk Ship Support Activity. We will use the
MARMC acronym throughout the report for consistency.

                                                    20
Inappropriate Authorization of Payment
The COR stated that he relied on port engineers8 to verify that services were completed.
We determined that the port engineers relied on the MARMC surveyors to determine
when services were completed; however, the MARMC surveyors did not perform
sufficient contract surveillance. Therefore, overall contract surveillance was inadequate.
We determined through meetings with the port engineers that the port engineers planned
the ships’ maintenance schedules and set priorities for repairs and maintenance. The port
engineers also validated the work requested on the ships and forwarded the validated
work requests to the MARMC surveyors. One port engineer told us that he marked the
work requests as complete when the surveyor reported back that work was completed.
We determined, however, that the MARMC
surveyors were not delegated contract surveillance      . . . payment may have been
responsibility under contract N00024-07-D-4002
                                                        authorized for services that
and did not perform sufficient contract
surveillance. Therefore, the COR should not have             did not meet contract
relied on the port engineers to verify that services             requirements.
were completed. Without sufficient contract
surveillance, payment may have been authorized for services that did not meet contract
requirements.

Unauthorized Duty
In addition, the contracting officer allowed the COR to perform an unauthorized duty by
issuing technical instructions under the contract. Since the technical instructions actually
include all the elements of actual task orders, the contracting officer allowed the COR to
enter into contracts for the Government as if he were a contracting officer. FAR
Subpart 1.602-1, “Authority,” states that only contracting officers have authority to enter
into, administer, or terminate contracts. Further, DFARS 201.602-2, “Contracting
Officer’s Responsibilities,” states that the COR has no authority to make any
commitments or changes that affect price, quality, quantity, delivery, or other terms and
conditions of the contract. However, the price, quality, quantity, delivery, and other
terms and conditions were established by the technical instructions because of the
contracting officer’s inappropriate use of the IDIQ contract (see Finding B). As a result,
the COR performed an unauthorized duty that was the contracting officer’s responsibility.
The contracting officer should not have allowed the COR to obligate the Government, set
the terms of the contract, or direct the contractor to perform work.

Conclusion
The contract lacked any formal qualitative and quantitative surveillance. The contracting
officer did not develop a QASP for formal quality assurance, and the COR did not
monitor the contractor’s performance. The COR relied on the MARMC project manager
or port engineers located in Bahrain with the contractor to perform quality assurance;


8
 The port engineers are contractor personnel under contract N00178-05-D-4635 for port engineering
services.

                                                  21
(FOUO) however, these individuals did not perform sufficient surveillance of the
contractor. The contracting officer also allowed the COR to exceed his authority and
direct the contractor to perform work through issuing technical instructions.
Consequently, the Navy has no assurance that approximately                 in services
performed by the contractor met contract quality and quantity standards.

Recommendations
C. We recommend the Naval Sea Systems Command Executive Director for Contracts
direct the contracting officer for contract N00024-07-D-4002 to:

        1. Develop a quality assurance surveillance plan for the measurable and
consistent evaluation of contractor performance in Bahrain for task orders and technical
instructions under contract N00024-07-D-4002.

       2. Assign a contracting officer’s representative in theatre to perform quality
assurance for all task orders and technical instructions issued under contract N00024-07-
D-4002.

         3. Enforce the contracting officer’s representative’s limitations as stated in the
Federal Acquisition Regulation and the contracting officer’s representative’s designation
letter and not allow the contracting officer’s representative to act as the contracting
officer and obligate the Government.


Management Comments Required
The Naval Sea Systems Command Executive Director for Contracts did not comment on
a draft of this report. We request that the Naval Sea Systems Command Executive
Director for Contracts provide comments on the final report.




                              FOR OFFICIAL USE ONLY
                                        22
Finding D. Necessary Certified Data Not
Provided by Contractor
Since FY 2008, FMSNA has not provided the contracting officer with certified cost or
pricing data to negotiate costs on interdivisional transfers of spare parts from an affiliated
company. The contracting officer took appropriate action by withholding payment from
FMSNA; however, he had not elevated the contractor’s denial to the NAVSEA Executive
Director for Contracts. The Navy could be overcharged if negotiations occur without the
contractor providing the required cost information. The contracting officer needs to
elevate the issue to more senior officials because FMSNA has not provided cost or
pricing data on prior contracts (see Appendix C), and this contract has the potential to set
a precedent for FMSNA to obtain future Government contracts (see Appendix B).

Criteria
The FAR provides guidance for determining whether a contractor is a responsible
contractor and for obtaining cost or pricing data. The DFARS provides guidance for
obtaining cost or pricing data when the contracting officer is unable to obtain information
to determine price reasonableness.

FAR
FAR Subpart 2.101, “Definitions,” defines:

      Affiliates as “associated business concerns . . . if, directly or indirectly . . . a third
       party controls or can control both.”

      Commercial item as “any item, other than real property, that is of a type
       customarily used by the general public or by non-governmental entities for
       purposes other than governmental purposes” and either “has been sold, leased, or
       licensed . . . or has been offered for sale, lease, or license to the general public.”
       A commercial item can be “any item that evolved from” the previous description
       “through advances in technology . . . and that is not yet available in the
       commercial marketplace, but will be available in the commercial marketplace in
       time to satisfy the delivery requirements” of the Government contract. A
       commercial item can also be any item that would normally meet the previous two
       definitions, and has “modifications of a type customarily available” to the general
       public or “minor modifications of a type not customarily available” to the general
       public. A minor modification is a modification that does “not significantly alter
       the non-governmental” purpose of an item.

FAR Part 9.103, “Policy,” states that the contracting officer must make a determination
as to whether the contractor is responsible before awarding a contract.

FAR Subpart 9.104-1, “General Standards,” requires the contractor to have a satisfactory
record of integrity and business ethics, and a satisfactory performance record to be

                                               23
considered responsible. FAR Subpart 42.1501, “General,” states that a satisfactory
performance record includes the contractor’s “history of reasonable and cooperative
behavior and commitment to customer satisfaction,” and “record of integrity and business
ethics.”

FAR Part 15.403, “Obtaining Cost and Pricing Data,” states that “the contracting officer
shall not require the submission of cost or pricing data” for any action “when a
commercial item is being acquired.”

FAR Subpart 31.205-26, “Material Costs,” states that the allowable amount “for all
materials . . . sold or transferred between . . . affiliates . . . shall be on the basis of cost
incurred . . . ” However, the allowable amount may be based on price when “it is the
established practice of the transferring organization to price interorganizational transfers
at other than cost . . . and the item . . . qualifies for an exemption under [FAR] 15.403-
1(b) and the contracting officer has not determined the price to be unreasonable.”

DFARS
DFARS 215.404-1, “Proposal Analysis Techniques,” states that when a contracting
officer cannot obtain information from the contractor to determine price reasonableness
the following steps should be taken:

                    A. The contracting officer should make it clear what information
                       is required and why it is needed to determine fair and
                       reasonable prices, and should be flexible in requesting data
                       and information in existing formats with appropriate
                       explanations from the offeror.
                    B. If the offeror refuses to provide the data, the contracting
                       officer should elevate the issue within the contracting activity.
                    C. Contracting activity management shall, with support from the
                       contracting officer, discuss the issue with appropriate levels of
                       the offeror’s management.
                    D. If the offeror continues to refuse to provide the data,
                       contracting activity management shall elevate the issue to the
                       head of the contracting activity for a decision in accordance
                       with FAR Subpart 15.403-3 . . . , [Requiring Information
                       Other Than Cost or Pricing Data].
                    E. The contracting officer shall document the contract file to
                       describe—
                            1) the data requested and the contracting officer’s need
                                 for that data;
                            2) why there is currently no other alternative but to
                                 procure the item from this particular source; and
                            3) a written plan for avoiding this situation in the future.



Spare Parts Dispute
(FOUO) The contracting officer has not authorized payment for approximately
          in parts purchased from FMSNAs affiliate, Issota Fraschini Motori (IFM),
because FMSNA has not provided documentation to support its claimed costs. The
                                 FOR OFFICIAL USE ONLY
                                           24
contracting officer believes that FMSNA is charging the Government twice for profit on
repair parts obtained from IFM and has requested cost and pricing data to support that
IFM has not charged FMSNA profit on the parts. In a letter to FMSNA dated, October
                                         20, 2008, the contracting officer requested that the
     FMSNA has refused to                contractor provide certified cost or pricing data
     provide cost or pricing             showing the breakdown of the cost of parts
      data for IFM parts . . .           FMSNA purchased from IFM. FMSNA has
                                         refused to provide cost or pricing data for IFM
parts, claiming that it is not required to provide cost or pricing data because the parts in
question are commercial items, and FMSNA and IFM are not under common control of
Fincantieri.9 See the figure for a Fincantieri Corporate organizational chart that shows
the relationship of FMSNA and IFM under the parent company Fincantieri.

                           Figure. Fincantieri Organization Chart




                                                                Parent
                                                                Company




                                                       IFM

                                        FMSNA




                      This organization chart was obtained from FMSNA’s Web site,
                  http://www.fincantierimarinesystems.com/org.htm, on April 16, 2010.




9
  Fincantieri Cantieri Navali Italiani S.p.A., the parent company, wholly owns Fincantieri Holding B.V.,
which wholly owns FMSNA. FMSNA was formerly FDGM, Inc. When Fincantieri formed FMSNA,
FMSNA absorbed FDGM, Inc. and all obligations, contracts, and commitments of FDGM, Inc. became the
responsibility of FMSNA.


                                                  25
(FOUO) The approximate cost of the parts in dispute was                   as of July 1, 2008.
We calculated the approximate cost of the spare parts in dispute by analyzing the task
orders issued under contract N00024-07-D-4002 to determine the parts used. We
obtained a listing of part numbers, unit prices, quantity used under contract N00024-07-
D-4002, and the total price for the quantity used for each part from the contracting
officer. We calculated the total price associated with each part used to determine the
amount of the disputed parts was approximately                 . The               does not
include material handling, general and administrative fees, and profit added to the base
cost of the parts under the contract. As of July 11, 2009, FMSNA requested payment of
              10
                 for all parts transferred from IFM to FMSNA and furnished to the Navy
under contract N00024-07-D-4002. FMSNA did not provide a breakdown of the costs
that made up the                   While material handling and general and administrative
fees and profit are allowed under the contract, FAR Subpart 31.205-26, “Material Costs,”
prohibits IFM from charging profit on parts transferred to FMSNA as part of the contract.
If allowed, the Government would be charged twice for profit. In addition, the
contracting officer executed the engine repair CLINs as a prohibited cost-plus-a-
percentage-of-cost contract (see Finding A). As a result, the contracting officer has
incentivized FMSNA to maximize the cost of repair parts under the contract.

Commerciality of Spare Parts
In a letter to the contracting officer, dated August 20, 2008, FMSNA claimed that the
engines sold to the U.S. Navy were a modified version of the engines sold to commercial
customers; therefore, the engines sold to the U.S. Navy qualified as commercial items. In
addition, FMSNA claimed that the parts used in the engines supplied to the U.S. Navy
were parts “of a type” used in those engines that were sold commercially. Further,
FMSNA stated that because those engines were commercial items, the parts in question
would also be commercial items as none of the parts supplied to the U.S. Navy were
made to Government specifications.

The contracting officer stated in a letter to FMSNA, dated October 24, 2008, that, in
accordance with FAR Subpart 31.205-26, “Material Costs,” FMSNA must meet the
criteria of the following two-part test in order to provide interorganizational transfers at
price.

           It is the established practice of IFM to price interorganizational transfers at other
            than cost for commercial work of FMSNA.
           The repair parts being transferred qualify for an exception under FAR Subpart
            15.403-1 (b), “Exceptions to cost or pricing data requirements.”

The contracting officer stated with regard to the two-part test, that FMSNA did not
provide any information to support whether or not it had an established practice of
making interorganizational transfers at a price other than cost. In addition, FMSNA had


10
     (FOUO) The amount of             was provided by FMSNA on July 11, 2009.

                                  FOR OFFICIAL USE ONLY
                                            26
not provided any documentation to support that the parts transferred from IFM were
actually commercial; FMSNA merely stated the parts were commercial without providing
any documentation to support its claim. The contracting officer stated that he determined
that the engines provided to the U.S. Navy were not commercial engines but unique Navy
engines that had significant modifications not customarily available on the commercial
market. Since the contracting officer determined that the parts were not commercial, the
contracting officer was required to request the submission of cost or pricing data under
FAR Subpart 15.403-1(c)(3).

Common Control
In addition to their claim that the parts sold by IFM were commercial items, FMSNA
officials contended that the FAR did not require them to provide cost or pricing data
because FMSNA and IFM were not “affiliates” or under “common control,” but were
separate entities that conducted business at an “arm’s length.” FAR Subpart 31.205-
26(e), “Material Costs,” states that materials, services, and supplies sold or transferred
between affiliates under common control may be allowed at other than cost or price when
it is the established practice of the transferring organization to price interorganizational
transfers at other than cost for commercial work. FMSNA officials believed that they
were allowed to charge the Navy the price that IFM charged them for parts because there
was no common control between the two companies; no third party exercised actual
control over both, nor did either control the other. In a letter to the contracting officer,
dated August 20, 2008, FMSNA stated for the first time that it was not under common
control with IFM. Furthermore, FMSNA stated in the letter that the meaning of the terms
“divisions, subdivisions, subsidiaries, or affiliates” was unknown because FAR 2.101 did
not define any of those terms. FAR Subpart 2.101 did in fact define affiliates as
associated business concerns if, directly or indirectly, a third party controls or can control
both.

The contracting officer determined that FMSNA and IFM were under common control
and explained to FMSNA in a letter, dated October 24, 2008, that it did not matter
whether the parent company actually exercised control over FMSNA and IFM, but rather
that the parent company had the ability to exercise that control. In addition, the
contracting officer stated that there was a commonality of various key members on some
of the Boards of Directors within the Fincantieri organization. The contracting officer
pointed out the common names and their various positions within the Fincantieri
organization in a letter to FMSNA, dated December 5, 2008.

In addition, in two separate Defense Contract Audit Agency (DCAA) reports, both
FDGM11 and IFM stated that they were wholly owned and controlled by Fincantieri
S.p.A. In FDGM’s response to DCAA Report 01661-2004D42000003, “Report on
Postaward Audit,” May 2, 2006, FDGM stated that it was wholly owned and controlled
by Fincantieri Holding B.V., which was wholly owned and controlled by Fincantieri
S.p.A. FDGM also stated that IFM was wholly owned and controlled by Fincantieri


11
     FMSNA was formerly FDGM, Inc.

                                             27
S.p.A. FDGM explained that the relationship between FDGM and IFM made the two
companies affiliates, as defined by FAR Subpart 2.101. In IFM’s response to DCAA
Report No. 2191-2004G42000003, “Report on Post Award Review of Intra-Company
Work Order Cost or Pricing Data,” February 10, 2006, IFM explained that it was wholly
owned and controlled by Fincantieri Cantieri Navali Italiani S.p.A. IFM also stated that
Fincantieri wholly owned and controlled FDGM through its fully owned subsidiary
Fincantieri Holding B.V., thus IFM and FDGM were “sister” companies. For more
information on the DCAA reports, see Appendix C. We believe the contracting officer
should request DCAA to review any cost data obtained from FMSNA.

When asked about their argument and their responses to DCAA audit reports, FMSNA
officials stated that the DCAA audit reports applied only to FDGM. However, when
Fincantieri formed FMSNA, FMSNA absorbed FDGM and all obligations, contracts, and
commitments of FDGM became the responsibility of FMSNA. Therefore, FDGM and
FMSNA were the same, and FDGM’s response to DCAA also addressed FMSNA.

We also reviewed four separate, slightly different, Fincantieri organization charts to
determine the organizational structure of the company and the relationship between
FMSNA and IFM. When asked to explain the correct organizational structure of
Fincantieri, FMSNA personnel explained that the organizational chart found on
FMSNA’s Web site was incorrect and a simplistic depiction of the organization and that
the organizational chart would be updated as soon as possible. In a meeting between the
audit team and FMSNA on July 7, 2009, FMSNA personnel stated that the organizational
structure changed in January 2009, yet the organizational chart remained unchanged as of
April 16, 2010, on the Web site (see the figure). Although each organizational chart was
different, each showed Fincantieri as the parent company of both FMSNA and IFM.

The Fincantieri 2007 and 2008 annual reports showed that Fincantieri directly owned
100 percent of IFM and owned 100 percent of Fincantieri Holding B.V., which in turn
owned 100 percent of FMSNA. In addition, the 2007 consolidated annual report
explained the basis of consolidation by stating that Fincantieri included the financial
statements of subsidiaries over which it exercised direct or indirect control in the
consolidation. Fincantieri further defined control as when it directly or indirectly owned
the majority of voting rights or the ability to determine the financial and operating
decisions of the entity and profits from the resulting benefits. Fincantieri included
FMSNA and IFM in the consolidated companies. As a result, the evidence supported the
contracting officer’s decision that the companies were under common control.

Contracting Officer’s Efforts to Resolve Dispute
We asked the contracting officer whether he had taken any additional steps outlined in
DFARS 215.404-112 (see page 24 for DFARS criteria) for obtaining information from
FMSNA to determine price reasonableness other than issuing letters on October 24, 2008


12
  We determined that although DFARS 215.404-1 is titled, “Proposal Analysis Techniques,” the criteria
could be used to obtain information to determine price reasonableness at any time.

                                                  28
and December 5, 2008, to FMSNA explaining the required information to determine fair
and reasonable prices. In an e-mail dated January 6, 2010, the contracting officer stated
that he did not elevate the dispute within his contracting chain of command because he
considered further action under DFARS 215.404-1 not to be appropriate at that time.
Specifically, he stated that FMSNA appeared to have dropped the issue and had not
requested negotiations to agree on pricing for the interdivisional transferred parts;
therefore, he concluded that there was no need for his management to get involved with
what appeared to have been resolved. The contracting officer stated that FMSNA had
chosen not to respond to his December 5, 2008 letter; however, it had continued to
perform under the contract without mentioning or making any further issue of the
payment for IFM interdivisional transferred parts. The contracting officer stated that the
correspondence he received from FMSNA on November 12, 2009, was about a
restructuring of the company and did not indicate any kind of displeasure, dispute, or
grievance against the Navy.

(FOUO) However, it is unreasonable to believe that the contractor will not attempt to
collect payment for               in spare parts that it believed it was entitled to. In fact,
on February 25, 2010, FMSNA officials contacted NAVSEA contracting officials and
inquired again about payment for the disputed parts and stated they were willing to
provide any supporting documents necessary to resolve the issue. Based on this e-mail,
FMSNA has not resolved the issue as stated by the contracting officer. Based on the
contractor’s response, the contracting officer reiterated to FMSNA that certified cost or
pricing data was needed to settle the costs. Because the contracting officer has been
unsuccessful in obtaining cost or pricing data, he should elevate the issue to the
NAVSEA Executive Director for Contracts as required by DFARS 215.404-1, and if
appropriate, the NAVSEA Executive Director for Contracts should elevate the issue to
the office of Defense Procurement and Acquisition Policy. Furthermore, O&M funds are
only available for payment for 5 years after the end of the fiscal year in which they are
obligated; therefore, an Antideficiency Act violation could occur if the contracting officer
and FMSNA reach an agreement and payment is made after the funds have expired.

Potential Impact for Future Contracts With FMSNA
Currently under this contract FMSNA officials have not provided certified cost or pricing
data to support their claimed costs for interdivisional transfers of spare parts from their
affiliate IFM. FMSNA has continued to receive Government contracts despite its
questionable business practices because, according to the Navy, FMSNA is the only
contractor capable of performing the required work according to Navy standards.

Additionally, under this contract, FMSNA performed a full-service trial on two MCM
ships. If the results of the full-service trial are favorable, FMSNA could gain full-service
contracts on all 14 MCM ships. Further, FMSNA has positioned itself to acquire full-
service contracts on the Navy’s fleet of Littoral Combat Ships. The number of Littoral
Combat Ships has not been finalized but, according to the naval technology Web site, as
many as 60 could be produced. The Navy should resolve this pricing issue with FMSNA
prior to awarding future contracts. See Appendix B for more information regarding the
full-service trial.
                                 FOR OFFICIAL USE ONLY
                                                 29
Conclusion
The contracting officer has attempted to obtain documentation and information to
determine fair and reasonable prices for interdivisional transferred parts from IFM to
FMSNA because he has determined that FMSNA and IFM are under common control
and the parts are not commercial. The contracting officer should elevate the issue to
higher authorities to assist in attempting to obtain certified cost or pricing data from
FMSNA to resolve the issue before funds expire and a potential Antideficiency Act
violation occurs.

Recommendations
D. We recommend that the Naval Sea Systems Command Executive Director for
Contracts:

        1. Assist the contracting officer in obtaining certified cost and pricing data for the
negotiation of fair and reasonable prices on interdivisional transferred parts and not settle
the disputed spare parts costs until this data is obtained and reviewed. If the contractor
refuses to provide the data, assistance should be requested from the Director, Defense
Procurement and Acquisition Policy.

       2. Direct the contracting officer to request assistance from the Defense Contract
Audit Agency to review any cost and pricing data obtained from Fincantieri Marine
Systems North America.

Management Comments Required
The Naval Sea Systems Command Executive Director for Contracts did not comment on
a draft of this report. We request that the Naval Sea Systems Command Executive
Director for Contracts provide comments on the final report.




                                             30
 Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through July 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the third in a series of reports on the Army and Navy ship maintenance contracts.
We selected a judgment sample of 16 Navy Fleet and Industrial Supply Center, Sigonella
task orders issued under 5 contracts and 1 additional Navy Fleet and Industrial Supply
Center, Sigonella, contract; 15 Army Mission and Installation Contracting Command-
Fort Eustis task orders issued under 1 contract; and 7 NAVSEA technical instructions
from FY 2005 through FY 2009 valued at $96,946,644 based on geographical location
and high dollar value. We selected this sample from a universe of 2,934 ship repair and
maintenance contracts valued at $171,901,765. These 2,934 contracts were awarded or
modified during FY 2004 through FY 2009 with place of performance located in
Southwest Asia. However, during the fieldwork stage of the audit, the team identified
that the potential issues pertaining to the Fleet and Industrial Supply Center Sigonella,
Army, and NAVSEA contracts were notably different. Therefore, we separated the
original project into four separate projects for the most effective and efficient method of
meeting our audit objectives. This report addresses the audit objectives as they relate to
NAVSEA; prior and follow-on audit reports address the issues regarding the other
contracts. During the course of this audit our scope expanded from the original seven
technical instructions selected in our sample. Specifically, we reviewed task orders 0002,
0006, 0007, 0008, 0010, 0011, 0012, 0013, and 0014 issued under IDIQ contract
N00024-07-D-4002, from FY 2007 through FY 2009, valued at $20.3 million. Our
review included 238 technical instructions, valued at $19.2 million, issued under these
task orders from FY 2007 through FY 2009.

We met with officials from NAVSEA; the Navy Yard, Washington D.C.; and the
MARMC, Norfolk Naval Base. We interviewed personnel at NAVSEA; the Navy Yard,
Washington D.C.; the MARMC Detachment Bahrain; and the Commander, Naval
Surface Forces. We conducted interviews with port engineers, diesel engine inspectors,
ship commanding officers, and FMSNA personnel. We conducted a site visit at the Navy
Yard, Washington D.C., from March 26 through April 7, 2009, and continued
communication with NAVSEA through June 2010. We also conducted a site visit in
Bahrain from May 25 through June 4, 2009.

We reviewed Federal and DOD criteria regarding cost-plus-a-percentage-of-cost
contracts, obligations, quality assurance requirements, and pricing of spare parts
transferred between affiliated companies. We specifically researched the FAR, the
DFARS, the DOD FMR, United States Code, Deputy Secretary of Defense memoranda,
and NAVSEA Instructions.


                                            31
(FOUO) We used two different sources to calculate the                   in contracted for
supplies and services with insufficient surveillance and acceptance in Finding C.
Because the               only includes work performed in Bahrain, we took information
from the task orders and from the COR’s technical instruction checkbook. For task
orders 0008 and 0012, we added the dollar values in the task orders for CLINs 0017AB
and 0019AA and 0025AB and 0027AA, respectively, because these task orders obligated
money only for Bahrain. The remaining four task orders, 0002, 0006, 0011, and 0013
obligated money for Bahrain and Japan through the same CLINs. In order to get the
dollar value only for Bahrain, we had to rely on the dollar values in the COR’s technical
instruction checkbook for those CLINs because the task orders did not detail the breakout
between Bahrain and Japan and the technical instruction checkbook was the only
document we received that had the breakdown of the money.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System-Next
Generation database to help choose our judgmental sample of contracts for the audit. We
queried all contract actions related to ship maintenance performed in the U.S. Central
Command countries since FY 2004. However, we did not rely on this data to support our
findings. Therefore, we did not perform a reliability assessment of the computer-
processed data.

Prior Coverage
No prior coverage has been conducted on ship maintenance contracts in Southwest Asia
for NAVSEA during the last 5 years.

Related Coverage
The following DOD IG reports can be accessed online at
http://www.dodig.mil/Audit/reports/index.html. The following DCAA reports are not
available online.

DOD IG Reports on Cost-Plus-a-Percentage-of-Cost
DOD IG Report No. D-2009-108, “U.S. Air Forces Central War Reserve Materiel
Contract,” September 23, 2009

DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DOD IG Report No. D-2006-007, “Contracts Awarded to Assist the Global War on
Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005




                             FOR OFFICIAL USE ONLY
                                       32
Defense Contract Audit Agency Reports on Interdivisional
Transfers Pricing
Defense Contract Audit Agency Report No. 01661-2004-D42000003, “Report on
Postaward Audit,” May 2, 2006

Defense Contract Audit Agency Report No. 01661-2005D24020001, “Report on
Estimating System Deficiency Disclosed During Postaward Evaluation of Contract
Number SP0760-03-D-9734,” January 3, 2005




                                         33
Appendix B. Concerns With Full-Service
Trial Under Contract N00024-07-D-4002
During the audit, we were made aware of the full-service trial that NAVSEA issued and
FMSNA executed onboard two MCM ships, the USS Dextrous and the USS Gladiator,
under contract N00024-07-D-4002. Based on the results of the full-service trial, the
Navy will decide if full-service contracts should be implemented onboard all MCM ships.
However, the results of the full-service trial may not have been reliable as a basis for
implementing full-service contracts onboard all MCM ships because there is no
reasonable assurance that all data was captured or that the data captured was accurate.
The Commander, Naval Surface Forces, was responsible for capturing all full-service
trial data and evaluating the data to decide whether full-service trial contracts should be
implemented onboard all MCM ships. We issued a memorandum in July 2010 to the
Commander, Naval Surface Forces, regarding the full-service trial stating that the data
obtained during the full-service trial may not have been reliable as the basis for
implementing full-service contracts onboard all MCM ships.




                                            34
Appendix C. Prior Pricing Issues With Other
FMSNA Contracts
(FOUO) FMSNA has been the subject of two DCAA reports. The first, DCAA Report
No. 01661-2004D42000003, May 2, 2006, stated that DCAA examined FDGM, Inc.
cost or pricing data related to the pricing of contract SP0760-03-D-9734




(FOUO) In another DCAA audit, Report No. 01661-2005D24020001, January 3, 2005,
DCAA reported on a post-award evaluation of solicitation SP0760-02-R-3491




(FOUO) In addition, a Defense Contract Management Agency price analyst informed a
NAVSEA contracting specialist in a September 2005 e-mail that prior reviews by DCAA
had

                  . The price analyst stated that the issue had not yet been resolved, but
the Defense Contract Management Agency suspected it is likely that FMSNA had done
the same                             in the FDGM proposal for NAVSEA. The NAVSEA
contracting specialist provided the contracting officer with the e-mail; therefore, the
contracting officer was aware of the DCAA reports.

(FOUO) The dispute the contracting officer is having with the contractor on contract
N00024-07-D-4002 addresses the same issues that the DCAA reports contained:

          FAR Subpart 9.103, “Policy,” states that the contracting officer must make a
determination as to whether the contractor is responsible before awarding a contract;



    FMSNA was formerly FDGM, Inc.
                                FOR OFFICIAL USE ONLY
                                          35
FAR 9.104-1, “General Standards,” requires the contractor to have a satisfactory record
of integrity and business ethics, and a satisfactory performance record to be considered
responsible. A satisfactory performance record includes the contractor’s history of
reasonable and cooperative behavior and commitment to customer satisfaction, and
record of integrity and business ethics. The contracting officer should have attempted to
mitigate these problems prior to issuing the contract. However, contract N00024-07-D-
4002 was awarded sole-source because FMSNA was the only contractor with the
capability of performing the required work and providing the parts in accordance with
Navy standards.




                                           36
